Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




      YOUTH AND ALCOHOL:
       DRINKING AND CRIME




                 VI.
                       Rich.,d P. Ku"cww
           J((
                       INSPECTOR GENERA
      '0



           O'''cr           APRi 199
                         OFFCE OF INSPECfOR GENERA
The mission of the Offce of Inspector General (OIG), as mandated by Public  Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. Ths
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servce , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program, and management problems , and recommends courses to correct
them.

                             OFFCE OF AUDIT SERVICE
The OIG's Offce of Audit Servce (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in carrng
out their respective responsibilties and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste , abuse, and mismanagement and to promote
economy and effciency throughout the Department.

                             OFFCE OF INTIGATIONS
The OIG' s   Offce of Investigations (01) conducts criminal , civil , and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions , administrative sanctions
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFCE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department , the
Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty, and
effectiveness of departmental programs.

This report was prepared under the direction of Kaye D. Kidwell , Regional Inspector General
and Paul A Gottlober, Deputy Regional Inspector General, Offce of Evaluation and Inspections
Region IX. Participating in this project were:

Brad Rolln , Project Leader

Donald Loeb

Brian Pattison

Maruta Zitans , Headquarters

Department of Health and Human                           Servces
               OFFICE OF
          INSPECTOR GENERAL




                      YOUTH AND ALCOHOL:
                       DRINKING AND CRIME




                                 VI'

                                       Richard P. Kusserow
                                       INSPECTOR GENERA
                      '0



                            "0'""" OEI-0-92-
                                                                         , "





               EXECUTIVE SUMMAR Y


PUROSE
The purpose of this study was to determine how many youth were under the influence
of alcohol when they committed crimes.

BACKGROUN
In response to public health concerns and the adverse consequences of alcohol abuse
the Surgeon General requested that the Offce of Inspector General (OIG) provide
information on the number or percentage of youth who were under the influence of
alcohol when they committed a crime. This concern mirrors one of the Department of
Health and Human Servces (HHS) Secretary s goals which is to reduce the prevalence
of alcohol problems among children and youth. Ths study is one in a series
conducted by the OIG related to youth and alcohol. A related report Youth and
Alcohol: Dangerous and Deadly Consequences " (OEI- 09-92- 00261), describes
alcohol's role in youth problems such as rape , risky sexual behavior, suicide , and
drowning.

We conducted intervews with 51 Federal, State , and local agencies to determine
whether they collect data about minors ' sobriety at the time of crime or arrest. In
addition , we conducted an extensive literature search and 13 intervews with
researchers to determine whether they had been able to measure alcohol's role in
youth crime. 

FIINGS
Data collctin obstacle are    di      to overcome

No agencies maintain data on a regular basis. Depending on the circumstances , a
youth who commits a crime may be involved with one or many different agencies. In
addition , States have varyng procedures and agencies to handle youth offenders.
Although several agencies mentioned that they had statistics , their data proved to be
inaccessible or inherently biased. In addition , we were unable to collect our own
statistics. All data collection methods presented barriers that prohibited us from
obtaining useful , reliable data. In addition , national youth surveys do not address this
issue.

Departnt of Justie    researchers have   Ii    informtin and data


Department of Justice (DOJ) researchers at times have attempted to determine the
extent to which youth alcohol use is associated with crimnal activity. The DOJ
studies , which are limited to serious juvenile offenders , found a strong association
between alcohol use and criminal activity.

Othe researche have    li     akohol and   cr statitiall
Other studies and articles show alcohol's involvement in crimes of aggression ,   including
murder and rape.

Fute technlo ma enble data          collctin and analysi

Technological advances such as a computerized national crime reporting system may
aid researchers in studying the link between underage drinking and crie.
                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                     TABLE OF CONTENTS
EXCU SUMY
INODUCTON. .                                                                                      . . . . . . . . . . . . 1

FIINGS

Data collection obstacles are diffcult to overcome. . . . . . . . . . . . . . . . . . . . . . . . . 2


Department of Justice researchers have limited information and data. . . . . . . . . . . 4


Other researchers have linked alcohol and crime statistically. . . . . . . . . . . . . . . . . . 7


Future technology may enable data collection and analysis . . . . . . . . . . . . . . . . . . . 8



APPENDIX A: Lit of Contact

APPENDIX B: Alcohol and Youth Crie Bibliography
                                                                       , "€




                          INTRODUCTION€
PUROSE
The purpose of this study was to determine how many youth were under the infuence
of alcohol when they committed crimes.

BACKGROUN
In response to public health concerns and the adverse consequences of alcohol abuse
the Surgeon General requested that the Offce of Inspector General (OIG) provide
information on the number or percentage of youth who were under the infuence of
alcohol when they committed a crime. This concern mirrors one of the Department of
Health and Human Servces (HHS) Secretary s goals which is to reduce the prevalence
of alcohol problems among children and youth. This study is one in a series
conducted by the OIG related to youth and alcohol. A related report Youth and
Alcohol: Dangerous and Deadly Consequences " (OEI- 09-92- 00261), describes
alcohol's role in youth problems such as rape , risky sexual behavior , suicide , and
drownng.

We conducted intervews with 51 Federal , State, and local agencies to determine
whether they collect data about minors ' sobriety at the time of crime or arrest. In
addition , we conducted an extensive literature search and 13 intervews with
researchers to determine whether they had been able to measure alcohol' s role in
youth crime. €
Appendix A contains a list of the agencies and researchers we contacted. Appendix B
contains a bibliography of youth and crime research and articles.
                                 FINDINGS€
DATA COLLCTON OBSTACL AR DIFCUT TO OVERCOME
Data Collctin Prblems
Numerous Federal , State, and local agencies administer juvenile justice. Depending
on the circumstances , an arrested youth may be involved with one or many different
State and local agencies. State agencies may include the State alcoholic beverage
control agency, social servce agencies , Attorney General' s offce , courts , corrections
department , State police, youth authority, and health servces department. Local
agencies may include the city police, county sheriff, social servce agencies , health
department , youth guidance center, juvenile courts , probation department, and public
school system. Although rare , the Federal government also may become involved in
the adjudication of certain juvenile offenses.

Juvenile justice agencies have varyng procedures to handle youth offenders. Most€
agencies do not maintain statistics related to arrested minors ' use of alcohol.€
Although offcials from several agencies mentioned that they had some data , their data€
proved to be inaccessible or inherently biased. Although some officials stated that we€
might be able to compile and review individual case files , not all communities allow€
researchers access to case files. In addition , files would reveal alcohol' s involvement€
only if police or attorneys specifically included it. One official acknowledged that not€
all arresting offcers follow the procedure for reporting alcohol use. Therefore

statistics probably would be biased. In summary, our attempt to collect statistics was€
unsuccessful.€

Metholoal Prble
We examined the feasibilty of collecting data ourselves. We could intervew youth
who have been arrested or analyze police arrest records to determine the percentage
of minors who were under the influence of alcohol when they committed a crime.
Both methods presented barriers that would prohibit us from obtaining useful , reliable
data.

        Intervewg youth who have ben arested


        Intervewig youth   offenders about whether they were under the infuence of
        alcohol when they committed a crime is one method to establish the link
        between alcohol use and crime. Researchers who have used this method have
        noted , however, that most offenders are never caught. In addition , researchers
        have not been able to determine whether arrested youth represent an accurate
        cross-section of youth criminal offenders.
The focus on arrested youth poses other methodological problems. Establishing
the universe of youth offenders who have been caught is almost impossible.
These youth experience many diferent outcomes.   They may be:

        released without charges

        cited and released
        granted probation

        given alternative treatment , such as community servce or admission to

        an alcohol education or treatment program
        committed to local juvenile detention facilities
        placed under the jurisdiction of State youth authorities

        required to serve time in State-operated youth facilties , or€
        tried in adult courts and placed in adult correctional institutions.€

State and local authorities do not automate their records sufficiently for
researchers to select samples of all arrested youth. Youth who have been
released , cited , or given alternative treatment may be impossible to track. The
only youth available for intervews are those who are being detained or
incarcerated. Surveying these youth  may yield highly biased data, according to
some critics. Youth who are in detention tend to be the most serious
offenders, with a history of social and/or psychological problems. Researchers
stress that it is not uncommon for youth with these problems to abuse alcohol.
In addition , one researcher expressed serious doubts about seriously troubled
minors ' willngness to disclose alcohol or drug use after being incarcerated.

Analg police arest recrds
Analyzng arrest records is another method to determine the youth alcohol and
crime rate. This requires , however , that police make an arrest at the scene of
the crime. One researcher estimates a minute percentage of all criminals are
caught at the scene of the crime. Some may be arrested after a lengthy
investigation, but authorities are unable to determine whether the offender had
used alcohol before committing the crime.

In addition ,   most police departments we surveyed do not require arresting
offcers to note the sobriety of an arrested minor or to even ask if a suspect has
been drinking. Researchers and authorities explained that enforcement
agencies focus on the crime , not the related circumstances such as alcohol use.
An arresting officer may notice only very obvious alcohol use.

An arresting officer may be the only person who can ascertain whether a youth
offender has been drinking. The human body breaks down and eliminates
alcohol faster than many other drugs. A drug test administered several hours
after an arrest is not an accurate measure of a youth' s condition at the time of
the crime.

            Although we found several police departments that record offenders ' sobriety,
            their records are not automated suffciently for analytical purposes. Authorities
            use the sobriety record to adjudicate individual cases ,      not for research
            purposes. In addition , juvenile courts often seal juvenile records, rendering
            them inaccessible to researchers.

Natina Yout Surey                      Limtins
Annual youth surveys , such as the Center for Disease Control's Youth Risk Behavior
studies or the National Institute on Drug Abuse s National Household Survey on Drug
Abuse, do not include questions about alcohol's role in criminal activity. If they did
they might be hindered by a lack of reliable self-reporting. A minor might be hesitant
to admit or not even know that he had committed a crime.

DEPARTM OF JUSTICE REEACHRS HAVE
INORMTION AN DATA
                                                                       LID
The Department of Justice s (DOJ) Bureau of Justice Statistics and Offce of Juvenie
Justice Prevention have attempted to determine the extent to which youth alcohol use
is associated with criminal activity. The             DOl's most recent and comprehensive study
related to this subject is its " Survey          of Youth in Custody, 1987.


According to the survey report , 31.9 percent of youth under 18 in long- term, State-
operated juvenile institutions in 1987 were under the influence of alcohol at the time
of the offense. In addition , 55.4 percent admitted that they drank one or more times
per week in the year before their incarceration. Youth in these facilities represent
only a small percentage of all handled by the juvenile justice system , however. They
are generally the most serious offenders ,            with a history of criminal activity. 1 The DOJ
analyzed alcohol use rates for different crimes. The table on page 5 ilustrates the
results.




         S. Department of Justice, Offce of Justice Programs , Bureau of Justice Statistics
Survey of Youth in Custody, 1987     Bureau of Justice Statistics Special Report. September
1988 , p. 6.
     OPERTED         JU FACI
     PERCENT OF OFFNDER               UNER AGE 18 IN WNG-TERM STATE­
                                                  WHO
              OFFSE UNER TH INUECE OF ALHOL (1987)"
                                                            COMM CUNT
                                                      Number Under
                                  Total               the Influence
                                  Number               of Alcohol
                                 (Weighted)         During the          Crime   Percentage

Al    Ofens                         18,
                          814             31.9%

Violent Ofens                          081                       2,94             324%

     Murder                           326                                         27.3
     Rape                             431                         132             30.
     Other Sexual Assault             634                         110             17.4
     Robbery                          372                         887             37.4
     Assault                          926                         986             33.
     Other Violent Offenses           392                                         23.

Propert Offens                       8,1
                        2,696            328%
     Burglary                          303                        463             34.
     Larcenyffeft                      303                        410             31.5
     Motor Vehicle Theft              402                         437             31.2
     Aron                             319                                         20.
     Other Property Offenses          894                         320             35.

Drg Offens                                                                        24.

     Possession                       521                         122             23.4
     Traffcking                                                   108             23.
     Other Drug Offenses                                                          68.
       (Including alcohol-related offenses)


Public-Orer Offens                   1,296                        'l7             20.

Juvenie Statu Offens                                              130             34.

. Includes      those who were under the influence of alcohol only or alcohol and other
     drugs.
.. This column represents our estimate because the       DOJ supplied only the total
     weighted number and the percentage under the infuence of alcohol at the time of
     the crime. The DOJ states that because of missing data , some percentages may be
    slightly off.
... Totals are slightly higher than the sum of the subcategories because of missing data.
According to another DOJ ll-city survey, from 4 to 32 percent of male juvenile
arrestees admitted using alcohol in the 72 hours prior to their arrest.      The   Drug
                                                                                   DOl's

Use Forecasting (DUF) program intervews minors about their alcohol use. This is
not useful for determining the extent to which alcohol use influences crime , however.
The DUF intervewers do not ask minors specifically if they were under the influence
of alcohol at the time of the crie?


                 MA JU' SEL-REORTED ALHOL
                 USE BEFORE COMMG A
                         FROM 4 TO 32 PERCENT
                                                        CR RAGES
                                                    Percent Who Used
                                                     Alcohol in the
                                                     72 Hour before
               City                                 Commttg a Crie
               Birmingham
               Cleveland
               Indianapolis
               Kansas City
               Los Angeles

               Portland
               St. Louis
               San Antonio

               San Diego
               San Jose
               Washington , Do

               . Source: DOJ, Offce of Justice Programs , National
                 Institute of Justice   Drugs & Crime: 1990 Annual
                 Report Drug Use Forecasting.        August 1991.




The DUF program relies on intervews only to gather information about alcohol use.
Although DUF intervewers obtain urine samples from most minors .who are arrested
they do not analyze for alcohol. The DUF admits that in certain cities-osuch as
Washington D. C. where only 4 percent of minors intervewed admitted using alcohol in
the previous 72 hours--minors clearly underreported their alcohol use. Two local
enforcement offcials were highly critical of the DUF program because it neglects to
collect adequate information about youth alcohol use. " Including alcohol in the DUF


   2 U. S. Department of Justice , Offce of Justice Programs
                                                           , National Institute of Justice
Drugs & Crime: 199 Annual Report        Drul! Use Forecastinl!. August 1991 , p. 16.
                       , ", "                                                  ),




network' s drug scan would not be difficult at all, " one official stated. The other added
 We have found that the urine testing that we do detects substantially more than any
                         , even the confidential ones. Adding alcohol is no big deal as
of the self-report studies
far as cost goes. Urine samples cost 21 cents.

A 1974 survey of youth under 21 in State adult correctional facilities found that
approximately 36.4 to 38. 6 percent reported drinking at the time of the offense.
Although this study is dated , it sheds light on the alcohol problems of miors who
commit the most serious crimes. Minors incarcerated for crimes against persons
(murder, assault , rape, robbery) were slightly more likely to be under the influence of
alcohol than those who committed crimes against property (arson , grand theft
burglary). 3 Youth in adult correction facilities represent a very small proportion of all
juvenile offenders.



OTHR REEACHRS HAVE LIND ALOHOL AN
STATISTICAI Y

Other studies and articles report that:

         Almost 50 percent of German juvenile offenders surveyed in 1971 were
         intoxicated when they committed criminal offenses. For crimes of aggression--
         such as murder, robbery, rape , and assault-- the rates were " rather higher.

         More than 52 percent of college students who admitted committing crimes were
         under the infuence of alcohol when the incident occurred.

         According to a school administrator who investigated the problem , 100 percent
         of sexual assault cases at the University of Colorado involve alcoho1.

One researcher had reviewed other researchers ' attempts to link alcohol use and
crie. He noted that researchers ' have found that anywhere from 6 to 72 percent of



   3 James J. Collns Alcohol Careers and Criminal Careers
                                                               " in Collns , (Ed. Drinkinl! and
Crime: Persoectives on the Relationshios Between Alcohol Consumotion and Criminal
Behavior. 1981 , p. 191. Data were first reported in a survey of State correctional inmates
conducted by the Bureau of the Census for the former Law Enforcement Asistance
Administration , 1974.
   4 Joachim Gerchow Alcohol Use and Juvenile Delinquency,
                                                           Child Health, v. 2 , 1983
  129.
   5 National Familes in Action (NFI), " College Students Report Strong Link Between
Substance Abuse and Campus Crime Drul! Abuse Update, no. 34 , September 199 , p. 13.

     NF "   Alcohol Use Linked with Sexual Assault , Gang Rape on College Campuses
Drul! Abuse Uodate. no. 28 , March 1989, p. 17.
miors were under the influence of alcohol at the time of the crime. 7 This wide
range further ilustrates the barrers that researchers encounter when examining this
issue.

FU TECHOLOY MAY
ANALYSIS                            ENABLE DATA COLLCTON


Technological advances may aid researchers attempting to link underage dring and
crime. A new, computerized national crime reporting system and a passive alcohol
sensor may provide data on alcohol's role in youth crime in the future.

The FBI has collected , analyzed , and published national crime data since 1930. The
FBI's Uniorm Crime Reports contains data relating to the number and tyes of
crimes committed every year. To improve the quality, accuracy, and usefulness of this
information , the FBI has initiated a program to automate and standardize the way
communities report crime statistics. The National Incident- Based Reporting System
(NIBRS) requires that State and local agencies enter certain crime information into a
computer database.

The FBI requires that each database contain a field to indicate whether authorities
suspect that an offender consumed alcohol or drugs prior to the incident. In its
implementation guidelines to State and local agencies, however, the FBI states that the
field may be left empty if the reporting police offcer does not note any alcohol or
drug use. In order for the system to provide reliable national data , arresting offcers
must note alcohol use.

Another barrier is the cost to States and local communities. Implementing the NIBRS
requires costly computer equipment and technical expertise. Because of current
budget diffculties , only a handful of communities participate in the program.

Another technological advance is a new alcohol sensor that may allow police offcers
to determine immediately whether criminal suspects have consumed alcohol.
Authorities in some communities have begun implementing a new " passive " alcohol
sensor. The device monitors the alcohol content of air near a suspect's mouth without
requiring any special effort on the suspect s part. Although the sensors primarily are
used to detect drunk drivers, they could be used quickly and legally to determine the
sobriety of a criminal suspect. Authorities could record this information in the arrest
report or in an automated computer database.




        7 Gerchow,   p. 129.

                            APPENDIX A

                                LIT OF CONTACI
FEERA AGENCIE
Department of Health and Human Servces:
 Public Health Servce:
      Alcohol , Drug Abuse, and Mental Health Administration:
          National Institute on Alcohol Abuse and Alcoholism
          National Institute on Drug Abuse
          Offce for Substance Abuse Prevention


Department of Justice:
  Drug Enforcement Agency

  Federal Bureau of Investigation
  Office of Justice Programs:
       Bureau of Justice Statistics
       National Institute of Justice
       Offce of Juvenile Justice and Delinquency

STATE ENORCENT/JUNI JUSTICE AGENCI

Alabama Criminal Justice Information Center
California Attorney General' s Offce
California Youth Authority
California Department of Justice , Bureau of Criminal Statistics€
Illinois Criinal Justice Information Authority€
Massachusetts Department of Probation€
New Mexico Youth Authority€
Oklahoma Department of Human Servces€
Oregon Law Enforcement Data System

Pennsylvania State Police
Vermont Administrator for the Courts
Washigton Department of Social and Health Servces , Offce of
     Juvenile Rehabilitation

STATE ALHOUC             BEVEGE CONTOL AGENCIE
Indiana Alcoholic Beverage Commission€
Oklahoma Alcohol and Beverage Laws and Enforcement Commission€
Oregon Liquor Control Commission€
Washington Liquor Control Board€
West Virginia Alcoholic Beverage Control€
CIT/COUN         JU           JUSTCE AGENCIE
Boise, il Juvenile Probation Department

Boston , MA Juvenile Court System

Charlotte , NC Juvenile Courts

Dallas , TX Juvenile Court System

Denver, CO Juvenile Intake Division€
Detroit, MI Juvenile System

Little Rock, AR Juvenile Courts , Prosecution Offce

Los Angeles , CA Juvenile Court System

Louisville , KY Juvenile and Family Courts

Memphis, TN and Shelby County Juvenile Court

Miami , FL Juvenile Intake

Milwaukee , WI Probation Department

San Francisco, CA Probation Department

Springfeld , IL Juvenile Division, Department of Corrections

St. Louis , MO Juvenile Court Intake Department

Tulsa, OK Juvenile Courts

Wichita , KS Juvenile Court Administration€

LOAL ENFORCEMENT AGENCI
Charles County, MD Office of the Sheriff

Columbus , NE Police Department

Honolulu , HI Police Department

Los Angeles , CA Police Department

Plymouth, NH Police Department

Portland , OR Police Department

San Francisco , CA Department of Public Health
South Paris , ME Sheriff Department

REEACHS/ACADEMCLGHOUSES
Drugs & Crime Clearinghouse

Ernie Chavez, Colorado State University€
Delbert Elliott , University of Colorado

Jeff Fagan, Rutgers University€
Jim Inciardi , University of Delaware

Interuniversity Consortium for Political and Social Research

       (University of Michigan)
National Clearinghouse for Alcohol and Drug Information
National Council on Crie and Delinquency
National Criminal Justice Reference Servce
Prevention Research Center (University of California , Berkeley)€
Rutgers University Criinal Justice/NCCD Collection

Eric Wish , University of Maryland

                            ,, "", "       , "                                   , " ),    ),   ),     , pp.




                                                  APPENDIX B€
                           ALHOL AN YOUT                        CR BffUOGRAHY
Brent, David A , Perper, Joshua A , and Allman , Christopher Alcohol , Firearms, and
       Suicide Among Youth: Temporal Trends in Alegheny County, Pennsylvania
            1960 to 1983               Journal of the American Medical Association , June 26, 1987
            3369- 3372

Collns, James J.      Alcohol Careers and Criminal Careers " in Collis , (Ed. Drinking
            and Crime: Perspectives on the Relationships Between Alcohol Consumption
            and Criminal Behavior,                1981 , pp. 152- 206.

                    The Relationship of Problem Drinking to Individual Offending
            Sequences " in Blumstein, Cohen , Roth , and Visher (Eds. Crimal Careers
            and Career Criminals, v. 2 , 1986 , pp. 89- 120.

Fagan , Jeffrey, " Intoxication and Aggression " in Tonry and Wilson (Eds.                       Drugs and
       Crime. v. 13 , 1990, pp. 241- 320.

Gerchow, Joachim Alcohol Use and Juvenile Delinquency, Child Health , V. 2
           pp. 127- 135.


Haggerty, Kevi Po ,      Wells , Elizabeth A , Jenson , Jeffey M. , Catalano , Richard F. , and
           Hawkins , J. David Delinquents and Drug Use: A Model Program for
           Community Reintegration Adolescence. Summer 1989 , pp. 439- 456.

Harrison, Carlos Kids on Crack: 880 Crimes Each in a Year Miami Herald,
           August 3 ,        1989,      p. 1.



llinois Criminal Justice Information Authority,                     Trends and Issues 89: Criminal and
           Juvenile Justice in llinois. 1989.

llinois Deparment of Alcoholism and Substance Abuse , Addictions Research
           Institute        Youth Survey: 1990-- 0ur          Youth Is Our Future , Apri 1991.

Inciardi , James A and McBride , Duane C. Treatment Alternatives to Street Crime
       developed for U.S. Department of Health and Human Servces , Public Health
       Servce , Alcohol, Drug Abuse, and Mental Health Adminstration , National
       Institute on Drug Abuse, 1991.

Insurance Institute for Highway Safety, " For Patrol Officers , Alcohol Sensors are
      Helpful Screening Tool Status Report, November 30, 1991 , p. 9.
            , ,
              "
" ,, ""   , "   , "                , '   , "                         , "





Jacobs, James B. Drinking and Crime National Institute of Justice Crime File
      Study Guide

Jenson, Randy, "Severity of Delinquent Offense and Alcohol Involvement Among
      Residents from a Rural Midwestern Juvenile Correctional Facilty, Juvenile
      and Familv Court Journal, November 1982, pp. 63- 66.

Loeber, Rolf, van Kammen , Welmoet , Huizinga , David , and Krohn , Marvn D. The
      Crime- Substance Use Nexus in Young People         Projects of the Program of
                                                               " in

      Research on the Causes and Correlates of Delinquencv (Compilation of articles
      stemming from the Denver and Pittsburgh Youth Surveys and the Rochester
      Youth Development Study), September 1991 , chapter 5.

Males , Mike Commentaries: Youth Behavior: Subcultural Effect or Mirror of Adult
       Behavior Journal of School Health, December 1990, pp. 505- 508.

Martin , Susan E. Alcohol-Related Interpersonal Violence: Current Knowledge and
       Research Directions                   Journal of the American Medical
                                " to be published in

       Association , 1992.

Nadelman , Ethan A. Drugs: The Case for Legalization Washington Post,
      October 8 ,     1989. .
National Families in Action Alcohol Use Linked with Sexual Assault , Gang Rape on
      College Campuses, Drug Abuse Update March 1989, p. 17.

                 College Students Report Strong Lin            Between Substance Abuse and
      Campus Crime Drug Abuse Update , September 1990.

Newcomb, Michael D. and McGee, Linda Adolescent Alcohol Use and Other
     Delinquent Behaviors: A One- Year Longitudinal Analysis Controlling for
     Sensation Seekig, Criminal Justice and Behavior, September 1989
      pp. 345- 369.


Rivers , James E. Drug Use and Criminal Activity Among Miami Youth Involved in
        the Crack- Cocaine Business , July 1989


Temple , Mark and Ladouceur, Patricia The Alcohol- Crime Relationship as an
     Age- Specific Phenomenon: A Longitudinal Study, Contemporary Drug
     Problems, Spring 1988 , pp. 89- 115.

U.s. Department of Health and Human Servces , Public Health Servce, Alcohol, Drug
      Abuse , and Mental Health Administration , National Institute on Alcohol Abuse
      and Alcoholism Seventh Special Report to the U.S. ConbIess on Alcohol and
      Health From the Secretary of Health and Human Servces , January 1990.
                  , "                                                , "   , "

                                                                             "




               Public Health Servce, Alcohol, Drug Abuse, and Mental Health
       Administration, National Institute on Drug Abuse Research Monograph Series
       #103-- Drugs and Violence: Causes. Correlates. and Consequences, 1990.

              Public Health Servce , Alcohol , Drug Abuse , and Mental Health
       Administration, Offce for Substance Abuse Prevention OSAP Mobilzes to
       Combat a National Crisis The Fact Is....       Spring 1991.


              , Public Health Servce Homeless and Runaway Youth: Public Health
       Issues and the Need for Action. 1991.

U.S. Department of Justice, Federal Bureau of Investigation Uniform Crime
      Reporting-- National Incident-Based Reporting System , v. 1- , July 1 , 1988.

             , Office of Justice Programs , Bureau of Justice Statistics Correctional
       Populations in the United States. 1987, December 1989.

                Office of Justice Programs , Bureau of Justice Statistics Drugs and Jail
       Inmates , 1989 Bureau of Justice Statistics Special Report, August 1991.

              , Offce of Justice Programs , Bureau of Justice Statistics      Fact Sheet:
       Drug Data Summary,      Drugs & Crime Data. November 1991.

               Offce of Justice Programs , Bureau of Justice Statistics Profile of State
       Prison Inmates , 1986 Bureau of Justice Statistics Special Report
       January 1988.



              Office of Justice Programs , Bureau of Justice Statistics Sourcebook of
       Criminal Justice Statistics-- 1990. 1991.

            , Offce of Justice Programs , Bureau of Justice Statistics Survey        of
      Youth in Custody, 1987 Bureau of Justice Statistics Special Report
      September 1988.

              Office of Justice Programs , Bureau of Justice Statistics Violent Crie
      in the United States, 1991.

            , Offce of Justice Programs , National Institute of Justice
       Drugs & Crime: 1990 Anual Report Drug Use Forecasting, August                1991.

              Offce of Justice Programs , Office of Juvenile Justice and Delinquency
      Prevention Improving Juvenile Justice at the Local Level OJJDP Juvenile
      Justice Bulletin ,   Reprinted from 
   NIl Reports March/April 1990.
                 , "                , "                               , "





              Offce of Justice Programs , Offce of Juvenile Justice and Delinquency
      Prevention Growth in Minority Detentions Attributed to Drug Law Violators
      OJJDP Update on Statistics. Reprinted from March 1990.

              Offce of Justice Programs , Offce of Juvenile Justice and Delinquency
      Prevention Juvenile Courts Vary Greatly in How They Handle Drug and
      Alcohol Cases    OJJDP Update on Statistics.   Reprinted from          NIl Reports
      July/August 1989.



              , Offce of Justice Programs , Offce of Juvenile Justice and Delinquency
      Prevention Public Juvenile Facilities: Children in Custody, OJJDP Update on
      Statistics , January 1991.

Watts , W. David and Wright , Loyd So The Relationship of Alcohol , Tobacco
        Marijuana , and Other llegal Drug Use to Delinquency, Among Mexican-
        American, Black, and White Adolescent Males Adolescence , Spring 1990
      pp. 171- 181.


White , Helene R. , Pandina , Robert J. , and LaGrange , Randy L. Longitudinal
       Predictors of Serious Substance Abuse and Delinquency, Criminology. v. 25
       no. 3 , 1987 , pp. 715- 740.
